                                             OFFICE OF INVESTIGATIONS
                                                         'I




On June 6,2002, we received an allegation that a chemical engineer1 failed to disclose a financial
                                                                                              '
conflict of interest2in his NSF proposal3. We determinkd that the allegation reflected a
misunderstanding of NSF policy: investigators are neither required nor expected to disclose
financial conflicts of interest to NSF. Rather, financial isc closures are made to institutions. In the
event that a proposal is funded, the institution must satisfactorily manage, reduce or eliminate
any identified conflicts of interest prior to the expendidre of any funds under the award, dr else
disclose the conflicts to NSF.

In the event of an award, the institution is required to reyiew the PI'S financial disclosures,
determine whether conflicts exist, and take appropriate action. We have no reason to believe that
the institution will fail to do so. Accordingly, this case is closed.



                                                              I




                                                              b
